<html>
<title> - PFAS: THE VIEW FROM AFFECTED CITIZENS AND STATES</title>
<body><pre>[Senate Hearing 117-54]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-54

                 PFAS: THE VIEW FROM AFFECTED CITIZENS
                               AND STATES

=======================================================================

                                 HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
        
                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-362 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------         
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              JUNE 9, 2021
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     3

                               WITNESSES

Stanton, Joanne, Co-Founder, Buxmont Coalition for Safe Water....     6
    Prepared statement...........................................     9
    Responses to additional questions from Senator Carper........    12
Kenney, Hon. James, Secretary, New Mexico Environment Department.    14
    Prepared statement...........................................    16
    Response to an additional question from Senator Carper.......    23
Mehan, G. Tracy III, Executive Director, American Water Works 
  Association....................................................    24
    Prepared statement...........................................    26
    Responses to additional questions from Senator Capito........    40
Mandirola, Hon. Scott, Deputy Secretary, External Affairs, West 
  Virginia Department of Environmental Protection................    50
    Prepared statement...........................................    52

                          ADDITIONAL MATERIAL

Letter to Senators Carper and Capito from the Environmental 
  Protection Network, June 8, 2021...............................    83
Letter to Senators Carper and Capito from the National Ground 
  Water Association, June 9, 2021................................    87
Letter and petition to EPA Administrator Regan from Michelle 
  Lujan Grisham, Governor, State of New Mexico, June 23, 2021....    93
Statement for the Record from the Association of Clean Water 
  Administrators, June 9, 2021...................................   100
Statement of the Center for Environmental Health et al., June 9, 
  2021...........................................................   111
Request To Reconsider Denial of Petition To Require Health and 
  Environmental Testing Under the Toxic Substances Control Act on 
  Certain PFAS Manufactured by Chemours in Fayetteville, North 
  Carolina, Center for Environmental Health et al................   123
Attachment A, Petition To Require Health and Environmental 
  Testing Under the Toxic Substances Control Act on Certain PFAS 
  Manufactured by Chemours in Fayetteville, North Carolina, 
  Center for Environmental Health et al..........................   142

 
            PFAS: THE VIEW FROM AFFECTED CITIZENS AND STATES

                              ----------                              


                        WEDNESDAY, JUNE 9, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Committee) presiding.
    Present: Senators Carper, Capito, Cardin, Markey, Stabenow, 
Kelly, Padilla, Inhofe, Boozman, and Ernst.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning, everybody. Welcoming our 
witnesses and everyone else.
    All of our staff, it is nice to see you all again.
    Recognizing the critical importance of this matter before 
us today, I am pleased to call this hearing to order.
    I am particularly pleased to welcome a panel of witnesses 
uniquely prepared to help us understand better the impacts of 
PFAS in our lives, our communities, and our States. A warm 
welcome to Joanne Stanton, to Jim Kenney, to Scott Mandirola, 
and Tracy Mehan.
    Some of you are not strangers, and we have been with you 
before. We welcome a chance to be with you all again. Thank you 
for your willingness to share your experience and your 
perspectives with us today.
    As you all may know, I am privileged to represent Delaware, 
one of the smallest States in our Union, albeit a State that 
sometimes punches above its weight. Despite the fact that our 
population numbers just under a million people, every one of 
our three Delaware counties has been plagued by the presence of 
PFAS chemicals in drinking water.
    In fact, while I hate to say it, there is not one of the 
States represented by the Senators sitting around this dais, 
nor in the entire Senate, that is not struggling to address 
this problem for their citizens and their communities.
    If this were merely a question of some pesky pollutant that 
occasionally finds its way into our groundwater and water wells 
on a very localized level, that would be one thing. That is not 
the situation that we all face today.
    What we are dealing with here is an almost universal, 
persistent toxin. Its presence in our water, at levels measured 
in parts per trillion, creates a very real risk of adverse 
developmental effects to fetuses and breastfed babies.
    This toxin is also associated with testicular and kidney 
cancer, liver tissue damage, as well as with harmful changes to 
the thyroid and the immune system.
    It is not just a public health concern. The presence of 
PFAS in our communities and our drinking water is having major 
impact on livelihoods, as well. People in affected communities 
are worried about falling property values, and farmers with 
contaminated lands and dairy herds are, well, sometimes out of 
business.
    According to Bloomberg News, Stoneridge Farms, a 100 year 
old family business near Arundel, Maine, was forced to shutter 
in 2019 due to PFAS contamination from sludge that was spread 
on the farm as fertilizer. As we will hear shortly in the 
testimony here, the farm in Maine is far from the only farm 
adversely affected by PFAS contaminated sludge.
    We will also hear that States across America are scrambling 
to protect citizens and restore contaminated lands and waters 
in the absence of needed Federal action on PFAS. In early May, 
Attorneys General from 18 States and the District of Columbia 
commented on the challenges posed by EPA inaction in their 
comments to EPA on its proposed rule to require public water 
systems to test for PFAS compounds.
    Those comments these AGs said, and I am going to quote 
them, they said, ``Millions of people across the United States 
are exposed to PFAS contaminated drinking water and widespread 
releases of PFAS into the environment. Many of the States have 
limited resources to comprehensively assess and address PFAS. 
Therefore, it is crucial for EPA to broadly regulate PFAS to 
protect public health and the environment.''
    Another outcome of varied State approaches to regulating 
PFAS is the familiar challenge of a patchwork of regulatory 
requirements, which could hamper an effective and efficient 
national effort to manage a nationwide public health threat. It 
will not be long before we all hear from our business 
communities about the challenge of meeting disparate 
requirements amongst the States.
    The bottom line is this: PFAS is a sinister and pervasive 
threat to our families' health; a drag on local, State, and 
national economies; and a problem that will not go away on its 
own. We need strategic national policies, programs, and 
investments to help us determine where PFAS contamination is, 
the health threats that these chemicals can pose, the best 
methods to rid our water and lands of these so called forever 
chemicals, and a host of other issues that are related with 
this class of chemicals.
    What we lack, and I suspect all our witnesses here today 
will agree, is a sense of urgency to address these and other 
questions and to provide the relief that many affected 
communities and families need, particularly those with 
vulnerable infants and children.
    Once again, I want to welcome on behalf of our entire 
Committee, each of our witnesses. Thank you for sharing your 
testimony and your stories with us.
    With that, I am pleased to recognize for her opening 
statement, our Ranking Member, whose State of West Virginia has 
endured far more of this than its fair share of PFAS 
contamination, Senator Capito.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you.
    Thank you, Mr. Chairman. I thank the witnesses for being 
here today, and thanks for calling this hearing.
    Addressing the challenges of PFAS contamination has been 
one of my highest environmental policy priorities, as many of 
you know, and I have long led bipartisan efforts to address 
this issue. For example, I took the lead role in provisions 
reported out of this Committee and included in the fiscal year 
2020 National Defense Authorization Act that established a 
clear process for EPA to publicly share information from PFAS 
manufacturers, processors, and users around the country.
    To address a substantial environmental and public health 
impacts from PFAS in West Virginia, I secured language in the 
fiscal year 2019 Department of Defense Appropriations Act to 
reimburse the city of Martinsburg for the significant costs 
involved in upgrading the Big Springs water treatment facility. 
The upgrades at that facility address PFAS resulting from 
Federal Government releases from the base of aqueous 
firefighting foam detected in their drinking water.
    I also ensured that Berkeley County, which is where 
Martinsburg is, was included in a joint study between the 
Department of Defense and the Agency for Toxic Substances and 
Disease Registry on PFAS exposure in populations living and 
working on and around military bases.
    Of particular importance to me is the timely action by the 
EPA to set drinking water standards for two specific PFAS: PFOS 
and PFOA. Assuring the American people's confidence that their 
drinking water is safe is essential. I have pressured the EPA 
directly, both the prior Administrator and this one, and via 
legislative proposals for years to move forward on regulating 
PFOS and PFOA.
    That process is now underway, though it was temporarily 
frozen by the Biden administration when they first came into 
office, along with a lot of other policies that were frozen. So 
we wrote to the President.
    In response to my February 17th, 2021, letter flagging this 
issue for White House Chief of Staff Ron Klain, EPA promptly 
reissued its final determination to regulate PFOS and PFOA 
under the Safe Drinking Water Act.
    So I am very grateful to Mr. Klain for his quick response 
and for the President as well, and that the EPA continues to 
work expeditiously to establish a national primary drinking 
water regulation.
    However, as we know, more work remains. I agree with the 
EPA's assessment that many of the regulatory and enforcement 
actions the executive branch and States may pursue relative to 
PFAS hinge on continued research and a more in depth 
understanding of the chemistry, environment, and health 
challenges posed by this broad class of compounds.
    I wrote to the EPA on April 19th, 2021, requesting updated 
information on the agency's research initiatives in order to 
inform me and my colleagues when we can expect the scientific 
data and information required to support regulatory actions and 
when they will be available to EPA. Unfortunately, I am still 
waiting for a response from the agency. It is critical that EPA 
ensures that science and not politics is driving EPA's 
regulatory decisions.
    While the Federal Government continues its much needed 
regulatory processes, West Virginia has utilized its State 
authorities to take action, led by the Department of 
Environmental Protection.
    Sadly, West Virginia has faced the legacy of PFAS 
contamination, originating from both industrial and military 
sites, the two major sources of contamination nationally, but 
it is this experience that has made the State government 
vigilant in its response.
    A chemical facility in Parkersburg led to PFAS pollution 
entering the environment for decades and resulted in an 
unprecedented ecological study of the population to identify 
the resulting health risks.
    As I mentioned earlier, in Martinsburg, on the other side 
of our State, an Air National Guard base use of PFAS laden 
firefighting foams contaminated the Big Springs water 
filtration plant. I worked with my colleague, Senator Manchin, 
to secure the nearly $5 million needed to provide the necessary 
filtration for that system after the military first agreed to 
pay for it, and then they tried to walk away, but we wouldn't 
let them.
    I know there are similar stories around the country. As I 
believe we all know and will be reaffirmed today, PFAS are all 
over this country, with background levels of contamination from 
a multitude of sources. But the actual threats to human health 
and the immediate environment tend to be highly localized, 
which is exactly why a deliberative, science based approach to 
testing and remediation is necessary.
    The State of West Virginia authorized and funded a review 
of its drinking water systems, and currently, the West Virginia 
Department of Environment Protection is sampling for PFAS in 
nearly every community water system across the State. I am very 
pleased that Scott Mandirola is here as a witness to provide an 
update on this ongoing effort.
    While I am proud to see West Virginia taking initiative in 
response to PFAS contamination, I am also aware of the critical 
need for continued scientific research to form the basis of 
appropriate Federal action that supports West Virginia and 
other States as they try to assess and respond to these 
challenges.
    With plenty of misinformation out there, appropriate risk 
communication from the Federal Government is crucial for 
helping State and local governments and our constituents 
understand and address PFAS pollution and not undermine the 
ability for States and localities to do so.
    I very much look forward to hearing from our witnesses on 
these topics today.
    Thank you, Mr. Chairman.
    Senator Carper. Senator Capito, thanks for very much for 
your statement.
    Our colleagues on this Committee will remember a hearing we 
held last month on three nominees, all women, for senior 
positions, including at EPA. One of those was Dr. Michal 
Freedhoff, a member of this Committee's staff for a number of 
years, and she was reported out 19 to 1. I have been urging our 
leadership on our side of the aisle to bring that nomination to 
a vote, and I would just ask our Republican colleagues to do 
whatever you can to make sure that she gets a vote. Maybe we 
will get somebody to answer our letters more promptly, so there 
you go.
    Again, welcome everybody, and let me introduce a couple 
witnesses, and then Senator Capito is going to introduce at 
least one of them.
    Our first witness is Joanne Stanton, the co-founder of the 
Buxmont Coalition for Safer Water in Pennsylvania. Ms. Stanton 
grew up near two military bases, both of which have become 
Superfund sites.
    I note, for the record, during the time I spent in the 
Naval Reserve, 18 years plus 5 years active, I flew out of one 
of those bases, Wilborough Naval Air Station, a P3 aircraft 
mission commander for 18 years.
    I think I could put my car on autopilot from Wilmington, 
Delaware, to Wilborough Naval Air Station after 18 years, and 
it would drive itself.
    Ms. Stanton became a community activist in 2015 after 
learning about decades long exposure to PFAS through 
contaminated water in her community.
    We welcome you today to our Committee, Ms. Stanton.
    I am also pleased to introduce Jim Kenney, who serves as 
the Cabinet Secretary for the New Mexico Environment 
Department. Prior to his current appointment, Secretary Kenney 
spent more than 20 years across two stints at USEPA. Most 
recently, he was a senior advisor for oil and gas and also as 
an environmental engineer, leading both criminal and civil 
investigations related to environmental statutes.
    Thank you for joining us today, Secretary Kenney.
    I am also going to introduce Tracy Mehan. Tracy serves as 
the Executive Director for Government Affairs at the American 
Water Works Association. Mr. Mehan has a long career working on 
water policy and served as an Assistant Administrator for EPA's 
Office of Water from 2001 to 2003.
    With that, let me just yield to Senator Capito to introduce 
our final witness.
    Senator Capito. Sure, thank you.
    I am very, very pleased to introduce Scott Mandirola, who 
is joining us today from Elkview, West Virginia, to share his 
expertise on these issues. He is the Deputy Secretary for 
External Affairs, as well as the Chief Science Officer for the 
West Virginia Department of Environmental Protection. He has 
worked for the department since 2006, when he first joined the 
Division of Water and Waste Management to manage the statewide 
water quality standards program before becoming director of the 
division in 2010.
    Prior to joining the department, Scott worked for 17 years 
for SGS Environmental Services, and before that, at the 
Connecticut Department of Health Services in the Water Supplies 
section. He has extensive experience working on water issues, 
and I am eager to hear his update on the statewide sampling for 
PFAS in West Virginia.
    The excellent work of Scott and his department are a 
valuable asset to the people of West Virginia, and I think my 
colleagues will find this testimony extremely useful to our 
Committee as we consider PFAS policies in this Congress.
    Senator Carper. Thanks for that introduction.
    Let me just say to our colleagues, I don't know what all of 
you did during the recess last week, but I covered my little 
State, we only have three counties, so it is not hard.
    But a lot of times, I would walk all around the State of 
Delaware, and I would hear from people, why don't you all work 
together, why don't you find things you can work on together?
    And the work that we have done on water infrastructure, 
clean drinking water and wastewater sanitation, unanimously 
endorsed by the Senate 89 to 2 a month ago, and the work that 
we did in reporting our unanimously the surface transportation 
legislation. I hear, just a couple weeks ago, it has gotten 
pretty good attention in my State, and I hope in your State as 
well.
    We are known in this Committee to be a work horse 
committee, not a show horse committee. We get stuff done, and I 
think we have the opportunity on PFAS, we have another great 
opportunity here to get stuff done, important stuff done for 
people in every one of our States. Every one of our States are 
affected by this.
    With that in mind, let's just turn to your testimony, Ms. 
Stanton. You are our lead off hitter, and let's begin with you, 
and you are recognized at this time for your statement.
    Thank you. Nice to see you.

           STATEMENT OF JOANNE STANTON, CO-FOUNDER, 
                BUXMONT COALITION FOR SAFE WATER

    Ms. Stanton. Thank you, Senator, and good morning.
    My name is Joanne Stanton. I grew up in Warminster, 
Pennsylvania, about 2 miles from two separate military bases 
that both used AFFF, the foam used by firefighters.
    My PFAS story started when I was a young mother. About 7 
years ago, our community was devastated to find out that our 
drinking water had been highly contaminated with PFAS for 
nearly 50 years, with some of the highest levels of PFAS 
pollution ever detected in public drinking water samples.
    As you can imagine, as a mother, I started to read 
everything I could possibly get my hands on about PFAS. When I 
began to research the health effects, I learned that some of 
these chemicals can cross the placenta, and they can affect a 
developing fetus. Animal studies showed that they caused 
cancer, tumors, neurodevelopmental problems, and even second 
generation health effects.
    The magnitude of what I was uncovering really hit me like a 
ton of bricks. I literally fell to my knees and started crying 
because my mind raced back to an earlier time when my son was 
diagnosed with a cancerous brain tumor at age 6.
    Back then, after my son's surgery, epidemiologists came 
into my son's hospital room and began pummeling my husband and 
I with very pointed questions: Where do you live, where was 
your early pregnancy, have you or your husband every worked 
with chemicals or pesticides? They told us at that moment that 
they found embryotic tissue in the very center of his tumor. 
That meant that it started to form during my pregnancy.
    There are three of us who grew up together in Warminster on 
the same street within just a few houses, that each had 
children of our own with brain tumors. All of the tumors were 
cancerous; all of the tumors had embryonic tissue in the core. 
Doctors immediately questioned our environmental exposures, and 
we realized that we all had drank PFAS contaminated water 
throughout our entire childhoods and during our pregnancies.
    As you can imagine, as a mother, it was gut wrenching for 
me to be told that my exposure may have actually caused my 
child's cancer. But what was truly sickening for me was to 
learn that both the Department of Defense and the chemical 
manufacturers have known since the 1970s just how poisonous 
PFAS are, and they chose to be silent. They chose to watch 
people in surrounding communities get sick and sometimes die, 
without warning us at all.
    Then I came to find out that the EPA also knew, since about 
1998, just how toxic PFAS are, and they too, failed to protect 
us.
    In my town, where I grew up, we have 3 year olds with 
kidney cancer who may never get a chance to do something as 
simple as learn how to ride a bike or put their first tooth 
under their pillow. There are new moms who don't feel they can 
safely breastfeed their babies due to the high level of PFAS 
found in their breast milk, and today, the Department of 
Defense is refusing to clean up legacy pollution across the 
country.
    It has been 8 years since we learned about PFAS at our two 
military sites, yet the chemicals are still polluting our 
public waterways. Within the past couple of years, PFAS 
groundwater levels on base have measured over 4,000 times what 
the current EPA's health advisory is for drinking water, and 
discharge levels in the runoff coming off base have far 
exceeded limits set in temporary discharge permits. No one, no 
one seems to be able to hold them accountable. How can this be?
    It is the EPA's job to regulate chemicals, to set safe 
drinking water standards, and to hold polluters accountable, 
even when that polluter is the Department of Defense, and it is 
your job to hold the EPA accountable when the agency fails to 
act. You all have the power to change the current course of 
history. You have the power to protect people like me, 
communities like mine.
    You have the power to designate PFAS as a hazardous 
substance under CERCLA, as Chairman Carper has proposed in the 
PFAS Action Act, which will ensure that PFAS pollution in 
communities like mine is treated as an urgent priority.
    You have the power to set a 2 year deadline for a Federal 
drinking water standard for PFAS, as Senator Capito has 
proposed in the Protect Drinking Water from PFAS Act. That is 
going to ensure that all communities across the country have 
safe drinking water. Why should my neighbors in New Jersey have 
safer drinking water than someone like me, who lives in 
Pennsylvania?
    You also have the power to set a deadline to clean up PFAS 
at military installations, precisely what Senator Gillibrand's 
Filthy Fifty and Senator Padilla's Clean Water for Military 
Families Act would jointly do to help communities like mine.
    My story is not unique. There are thousands of stories like 
mine across this country.
    On a personal note, my son was one of the lucky ones. He 
survived cancer, but it did not come without a price. As a 
mother, watching my vibrant, bright child slowly fade into a 
disabled adult has been one of the hardest things I have ever 
had to do.
    Today, he's 30 years old; he still lives at home. He can't 
drive, he probably won't marry and have children, or experience 
many of the joys in life that we had dreamed of for him.
    I now realize that stronger regulations governing 
environmental pollutants like PFAS could have prevented 
needless suffering for me and for so many, many people in my 
community.
    It might be too late for my son, but it is not too late for 
others. Our children, our grandchildren, cannot afford to wait 
another minute.
    The fact remains that the Department of Defense is one of 
the largest polluters in this country, and I find it ironic 
that the very entity whose job it is to protect the American 
people has given a lot of American people cancer and other 
diseases.
    You all have the power to hold both the DOD and the EPA 
accountable. You have the power to change the way things are 
and ensure that our children, our grandchildren, and future 
generations are better protected than we are. As a mother, I 
implore you to act on PFAS with urgency and action.
    Thank you.
    [The prepared statement of Ms. Stanton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. I know you speak from the heart, and I 
would say not just as a Senator and the Chairman of this 
Committee, but as a father who has helped raise three boys, and 
I speak for all of us, to just say we appreciate your deep and 
sincere sadness. We want to express our concern and sympathy 
for what your family has been through. Nobody should have to go 
through that. Nobody should have to go through it.
    My hope is that your testimony here today will enable us to 
prevent this from happening to others and have them endure what 
your family has to endure.
    Ms. Stanton. Thank you.
    Senator Carper. With that, I am going to call up our next 
witness. I think he is joining us remotely. Is that right? 
Secretary Kenney is out there.
    Secretary Kenney, where are you today? Earth calling 
Secretary Kenney; come in, Secretary Kenney. Can you hear me?
    Mr. Kenney. Chairman, I can hear you. Can you hear me?
    Senator Carper. No, we can't.
    [Laughter.]
    Senator Carper. Actually, we can hear you clearly now. 
Welcome aboard. Where are you?
    Mr. Kenney. I am in Albuquerque, New Mexico, Mr. Chairman.
    Senator Carper. All right. We are delighted. Good to see 
you out there, and thanks for being here today, as well.
    You are recognized. Take it away.

          STATEMENT OF HON. JAMES KENNEY, SECRETARY, 
               NEW MEXICO ENVIRONMENT DEPARTMENT

    Mr. Kenney. Thank you.
    Mr. Chairman, Ranking Member Capito, members of the 
Committee, my name is James Kenney, and I am the Cabinet 
Secretary for the New Mexico Environment Department under 
Governor Michelle Lujan Grisham. Thank you for the opportunity 
to provide testimony today on behalf of the State of New 
Mexico.
    Simply stated, the mission of my department is to protect 
the health of New Mexicans. The reality is, I can't do so when 
it comes to PFAS. It is not for lack of scientific data or 
remedial technology. What we are lacking is a Federal 
regulatory framework for PFAS.
    The EPA Drinking Water Health Advisory from 2016 was a 
great start. But it is now 2021, and there is no regulatory 
certainty for States and our communities. No person should 
suffer the negative health effects of PFAS, not in New Mexico 
or elsewhere, which is why States have been taking action to 
protect their communities.
    I have been asked many times by New Mexicans, is my water 
safe, are my agricultural products impacted, how is my property 
value affected, and why isn't EPA and why aren't you doing 
work?
    States commonly tackle problems impacting their 
communities. What is not common is when such efforts are met 
with Federal lawsuits. The United States Air Force sued New 
Mexico to prevent the cleanup of PFAS at Cannon Air Force Base 
in New Mexico. The Air Force argued Congress did not give EPA 
and States the authority to clean up PFAS under the Resource 
Conservation and Recovery Act, a hazardous waste management law 
passed by this body.
    The Department of Justice and the Air Force are trying to 
reshape the intended purpose of this act. It is clear that 
Congress intended for this act to protect all Americans, 
including the dairy farmer just outside of Cannon Air Force 
Base who learned in 2018 that his cows were contaminated with 
PFAS. He lost millions in milk sales, and he is now faced with 
disposing of thousands of PFAS contaminated cow carcasses.
    New Mexico also sued the Air Force due to the imminent and 
substantial endangerment from PFAS contamination at Cannon Air 
Force Base and Holloman Air Force Base. For perspective, PFAS 
levels at Cannon Air Force Base were 370 times the EPA health 
advisory, and PFAS levels at Holloman Air Force Base are 27,000 
times the EPA health advisory. This is clearly a public health, 
environmental, and economic crisis for New Mexico and other 
States.
    You don't have to live near an Air Force base to be 
concerned about exposure to PFAS. Every day, news articles 
appear about PFAS in consumer products. Recently, we were 
shopping for a rug in Albuquerque from a national furniture 
retail store. The retailer offered a fabric protection 
treatment and told us it was safe for people, pets, and the 
environment. I asked for information on the fabric protection 
treatment out of curiosity and noticed it contained PFAS.
    Aside from the concerns over consumer disclosure, employee 
safety for those who are applying the chemical, the retailer 
will continue to generate PFAS waste from the application 
process, and these wastes will end up in our municipal 
landfills and our wastewater treatment plants. The point being, 
PFAS is moving throughout our economy and throughout our 
environment completely unregulated by the Federal Government.
    In conclusion, to reduce and eliminate the risk from PFAS, 
we need the whole of government approach. This is where 
Congress can help. By affirming that discarded PFAS is a 
hazardous waste under the Resource Conservation and Recovery 
Act, this will immediately create a national cradle to grave 
approach across 50 States and territories that have EPA 
approved hazardous waste programs. This will allow States to 
definitively address PFAS, including contamination at Air Force 
bases, PFAS waste generated by retailers, and once enacted, a 
national drinking water standard, we will be dealing with 
wastewater treatment sludges, and this will, again, help with 
that effort.
    Last, Congress must directly fund States. We are the front 
lines. We are managing the increased cost of PFAS responses, 
and we are being responsive to our communities. New Mexico, 
like other States, cannot equally protect its communities 
without such funding.
    I appreciate the opportunity to provide my perspective and 
recommendations, and thank you, Mr. Chairman.
    [The prepared statement of Mr. Kenney follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Secretary Kenney, thank you very much for 
joining us.
    Now, I am going to call on Mr. Mehan.
    Mr. Mehan, you are recognized next, please.

 STATEMENT OF G. TRACY MEHAN III, EXECUTIVE DIRECTOR, AMERICAN 
                    WATER WORKS ASSOCIATION

    Mr. Mehan. This is Tracy Mehan. I am Executive Director for 
Government Affairs at the American Water Works Association, and 
like the other panelists, most grateful to be able to address 
you today on this pressing public health issue.
    Before I get into PFAS, I would like to thank you on behalf 
of our 50,000 members for your excellent work and collaboration 
on S. 915, Drinking Water and Wastewater Infrastructure Act of 
2021. This is a most welcome development. The overwhelming 
bipartisan approval shows that your work was very fruitful.
    We are also pleased to see the parity now, at least 
ultimately, between the two SRFs, between the Clean Water Act 
and the Safe Drinking Water SRF. For your hard work on that, we 
are extremely grateful.
    Senator Carper. We want to thank you and a lot of folks, 
your counterparts around the country for the great work that 
you did in helping us to write the legislation. Thank you.
    Mr. Mehan. I appreciate that, Mr. Chairman.
    Turning to the categories of chemical compounds known as 
PFAS, I would like to discuss several issues, at least to the 
extent that I can. One is other authorities that EPA could be 
using to address this problem beyond just the Safe Drinking 
Water Act, but then also discuss the theme that Senator Capito 
mentioned, the need for research to do important and successful 
regulation, especially under the Safe Drinking Water Act, and 
if there is time, address any number of issues that you can 
find in our written testimony.
    Regarding existing authorities, we still believe, and we 
have testified this previously before this Committee, that the 
Toxic Substance Control Act, TSCA, is a huge tool that is not 
being utilized by the agency. TSCA has data gathering authority 
that the agency could use to garner more information from the 
manufacturing sector about the number of PFAS compounds that 
have been developed, in what quantities they were produced, and 
where they were produced.
    TSCA data indicates that the manufacturers have already, as 
we know, discontinued use of a number of the PFAS compounds, 
but State and local risk managers need more information that is 
currently available to manage not just legacy compounds, but 
proactively manage PFAS that are currently in use. Deploying 
TSCA authorities in service of safe drinking water is source 
water protection, really, at the most strategic level, and 
again, not just that law, but the Clean Water Act can come into 
play controlling PFAS, as well.
    Information gleaned from TSCA can help the assessment of 
PFAS in the environment and the development of industrial pre-
treatment actions under that Clean Water Act. Clean water 
authority is important in the development of analytical methods 
for PFAS and industrial waste waters and the development of 
appropriate and reliable treatment methods. EPA has yet to take 
substantial action under TSCA or the Clean Water Act to collect 
substantial data on PFAS in the United States.
    In contrast, my members are going to be subjected to 
unnecessary but very onerous process under UCMR 5, placing 
responsibility on water systems to take the lead to identify 
potential sources of PFAS in the environment as opposed to 
taking actions under TSCA and the Clean Water Act to 
substantively identify these sources. This will again place the 
burden on the public water systems and their customers to 
address PFAS issues that were caused by other polluters. What 
happened to the polluter pays principle?
    AWWA continues to emphasize the need for EPA to take action 
under TSCA and other authorities, such as provide a report in 1 
year and update it every 2 years describing the location of 
current and past PFAS production, import, processing, and use 
in the U.S. of individual PFAS compounds based on data 
collected through TSCA and report on actions planned or 
otherwise to restrict production, use, and import.
    We have several other recommendations relating to TSCA and 
the Clean Water Act, and I will refer to my written testimony.
    Research, we have many suggestions in our written 
testimony. It is absolutely fundamental. The reason why we 
probably haven't had as many regulatory determinations under 
the 1996 amendments is because of a lack of occurrence data and 
necessary toxicology to make an informed, science based, data 
driven, risk focused decisions, and research is absolutely key, 
and resources in that area are essential.
    Thank you for your time today. I am most grateful.
    [The prepared statement of Mr. Mehan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Thank you, Mr. Mehan.
    Next, we are going to hear from Mr. Mandirola.

 STATEMENT OF HON. SCOTT MANDIROLA, DEPUTY SECRETARY, EXTERNAL 
 AFFAIRS, WEST VIRGINIA DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Mr. Mandirola. Thank you.
    Chairman Carper, Ranking Member Capito, and members of the 
Committee, good morning. I want to thank you for the 
opportunity to be here today to represent West Virginia in this 
dialogue about PFAS contamination and its impact on water 
quality.
    Thank you, Senator Capito, for your persistence in helping 
Martinsburg pursue reimbursement from the Department of Defense 
and for being a champion on this issue for the State of West 
Virginia and the Nation.
    As you know, West Virginia was made a focal point of this 
issue in 2019 with the release of the movie Dark Waters, which 
is based on a story of an attorney who takes a stand against a 
large chemical company that has contaminated a small town's 
drinking water with PFOA.
    Per- and polyfluoroalkyl substances, PFAS, were 
manufactured and used in a variety of industries around the 
globe since the 1940s.
    PFOA and PFOS are the most studied of several thousand PFAS 
compounds. PFAS is estimated to be present in the blood of 
almost all U.S. residents.
    The EPA recently developed a health advisory level for the 
combined concentration of PFOA and PFOS in drinking water of 70 
parts per trillion and is in the process of developing a 
maximum contamination level for drinking water.
    While EPA continues to study the toxicity of PFAS 
chemicals, West Virginia created a PFAS work group in 2019 in 
order to understand the potential problem. The work group 
consisted of members from the West Virginia Department of 
Environmental Protection, the West Virginia Department of 
Health and Human Resources, and the United States Geological 
Service. It determined early on that the most significant 
exposure pathway in the State is contaminated drinking water.
    The work group asked USGS to create a study plan to sample 
and analyze every public water system regulated by the West 
Virginia DHHR, including schools and daycare facilities. The 
project analyzes untreated water from both groundwater and 
surface water intakes for the presence of 26 PFAS compounds.
    While the work group planned its study, the West Virginia 
legislature debated action on PFAS in the form of a bill named 
the Clean Water Act of 2020, which required the State to 
develop water quality standards and maximum contamination 
levels.
    Following DEP's discussion with the State Senate about the 
planned testing activity for PFAS across the State, the Senate 
created and passed Senate Concurrent Resolution 46, directing 
the West Virginia DEP and the West Virginia DHHR to propose and 
initiate a plan to sample PFAS substances in all community 
water systems in West Virginia.
    Our drinking water study began in July 2020. The study will 
take 2 years; the first for sampling, the second to conduct 
data analysis and draft a report. When complete, the State's 
279 public water systems will have been tested.
    The USGS completed sampling of all the sites last month. To 
date, USGS has received preliminary results for 273 sites. The 
study revealed five sites that tested positive for the presence 
of PFOA and PFOS in excess of EPA's health advisory limit of 70 
parts per trillion: The Lubeck, Vienna, and Parkersburg public 
water systems are contaminated by PFOA related to the 
production and use of C8 at the Washington Works DuPont 
facility.
    In Martinsburg, the public water system is contaminated 
primarily by PFOS, associated with the historical use of AFFF 
firefighting foam at a local military installation. The 
Glendale Public Water System is contaminated by PFOS, likely 
related to the historic use of the compounds in metal plating 
industries, although further investigation is still underway.
    These preliminary results revealed only two areas of known 
contamination in West Virginia: Along the industrialized Ohio 
River corridor and the eastern panhandle of the State. 
Fortunately, the rest of West Virginia shows little PFAS 
contamination.
    In summary, thanks to USGS's work with the State, West 
Virginia has developed an extensive data base of PFAS results. 
The next step in the protection of public health is the 
development of a safe exposure limit for PFAS compounds.
    Although some States have developed their own MCLs and 
water quality standards, West Virginia and many other States 
are relying on the EPA Office of Research and Development to 
develop national guidelines and regulations for the protection 
of human health from these chemicals.
    In closing, I would like to thank the Committee for its 
effort to protect the public from PFAS.
    Thank you.
    [The prepared statement of Mr. Mandirola follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Mr. Mandirola, thanks so much for joining 
us from West Virginia, the Mountain State.
    I want to ask maybe the same question of you, Ms. Stanton, 
and maybe the same question of Secretary Kenney, maybe a two 
part question; it deals with discovering the problem.
    Ms. Stanton, would you just describe for us who first 
discovered that PFAS was a problem in the community where you 
and your family live, or in the case of Secretary Kenney, in 
your State of New Mexico? The question is, who first discovered 
it, if you can help us with that, Ms. Stanton.
    Ms. Stanton. Sure. Thank you for the question, Senator. For 
us, it was the summer of 2014, and local water companies did 
sampling under EPA's UCMR 3, and that is what got the hit and 
started everything in motion.
    Senator Carper. All right.
    Secretary Kenney, can you help us with the same question, 
how the folks in your State first became aware of this problem?
    Mr. Kenney. Senator, yes. I almost want to ask you which 
problem. There are multiple PFAS problems in the State of New 
Mexico, like there are in many States.
    With respect to our Air Force bases, the two that I 
mentioned earlier, they disclosed the problem to us in 2018 
after looking into it prior to my tenure, and we are also, like 
West Virginia and other States, working through the USGS to 
look across counties in New Mexico to see where there are PFAS 
problems, so we are actively engaged in looking for them and 
finding them.
    Senator Carper. Could either of you just mention for us 
what might have motivated the folks who discovered this 
contamination, what motivated them to do it? Any idea?
    Ms. Stanton, do you want to take a shot at that? Any idea 
what motivated the folks who made this detection of the 
contamination, what motivated them?
    Ms. Stanton. The EPA.
    Senator Carper. OK.
    Secretary Kenney, same question.
    Mr. Kenney. Senator, what motivated us here is a concern 
for public health. Knowing that where we look for these 
omnipresent, ubiquitous, hard to treat chemicals, we will find 
them, so it was our due diligence to go out and look. What 
motivated the Air Force to look for the chemicals, I believe 
there was impetus by Federal agencies and maybe this 
congressional body.
    Senator Carper. All right, thank you.
    Secretary Kenney, another question for you, if I may. 
Please describe for us some of the specific public health and 
economic challenges faced by your State as a result of the PFAS 
contamination, and would you specifically discuss the impact of 
PFAS contamination on your agricultural producers?
    Mr. Kenney. Thank you for that question, Senator. The 
environmental impacts and economic impacts are real for our 
State. You will see in my written testimony that we have seen 
implications from environmental impacts historically in New 
Mexico. Things like Gold King Mine really affected our economy, 
from an outdoor recreation from a tourism perspective, and we 
fear that that could be the same outcome that could result from 
things like PFAS contamination. Holloman Air Force Base is 
directly adjacent to the most popular national park in New 
Mexico, White Sands, with 600,000 visitors a year.
    So we are concerned about the economic impact to those 
industries, and most important to our agricultural industry, a 
$3 billion a year industry that is threatened by PFAS 
contamination.
    I would be remiss not to say to this Committee as well as 
to those listening that we are actively engaged with testing 
agricultural products to ensure their safety. That is something 
we have been embarking on now for a while. We are concerned 
about the public health, environmental, and economic impacts.
    Senator Carper. You spoke of this already, but let me just 
ask one last follow up. Would you just share with us some of 
the primary challenges that the State of New Mexico is facing 
in dealing with this contamination, please?
    Mr. Kenney. Again, thank you for the question. The 
challenges that we are facing is a lack of the regulatory 
framework in order to protect New Mexicans. Specifically, let 
me give you this example. When we find PFAS and it is above the 
EPA health advisory level, and we know that other States have 
set much lower standards, it is complicated to assure the 
public and even ourselves as regulators as to what the right 
outcome should be. How do you treat down to that level, what do 
you remediate to?
    So, the lack of standards presents not only a question of 
where do you start, but where do you end.
    Senator Carper. Thank you, sir.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Mr. Mandirola, I would like to ask a couple of questions. 
You mentioned the one, two, three, four, five communities that 
had a higher level, and that the rest of West Virginia had 
little or no trace PFAS contamination. You mentioned there were 
273 community water systems that were tested. Is that correct?
    Mr. Mandirola. That is correct. There were actually 279, I 
believe, that were tested. We haven't gotten results for all of 
them back.
    Senator Capito. You haven't. OK, so let's go back to the 
history of this, because I think it was probably 3 or 4 years 
ago, our State was notified, I believe, by the EPA that in the 
Parkersburg and Martinsburg area, our water systems were above 
the level. Is that how the whole thing sort of started for us, 
correct?
    Mr. Mandirola. That is correct. Through the UCMR testing of 
water systems, Martinsburg was tested for PFAS compounds, and 
it was determined to have above the action level.
    Senator Capito. So, above the 70 parts per billion?
    Mr. Mandirola. Correct.
    Senator Capito. Then they shut the water systems down, 
right?
    Mr. Mandirola. That is correct. They took Big Spring Well 
offline.
    Senator Capito. And then Martinsburg, and I believe Vienna 
was the water system, I think, for in the Parkersburg area, 
they purchased filters or whatever that would filter this out. 
Right?
    Mr. Mandirola. That is correct.
    Senator Capito. That is right, but they are still doing a 
community assessment, health assessment in the Martinsburg area 
to see what the effects might be?
    Mr. Mandirola. That is correct.
    Senator Capito. OK. So, if you look at where we started and 
where we have been, I think that raised huge alarm bells for 
our State, not only because of the impacts. One of the impacts 
in Martinsburg, as you know, was the fact that we had an 
enormous industrial partner that came, P&G, to build the state 
of the art manufacturing facility in and around the Martinsburg 
area in Berkeley County. One of the provisos was that clean 
water would be available for their products.
    Obviously, that is extremely important to the 
manufacturing, and this became the real strain, I think, for 
Martinsburg to be able to get back online to be able to fulfill 
their commitment to Procter & Gamble.
    Mr. Mandirola. That is correct.
    Senator Capito. Right, right. So, as we move forward on 
this, I am sure there is a lot of trepidation on the community 
water systems as to what is this going to mean when you know 
that Martinsburg was $4 million; I can't remember what 
Parkersburg was.
    In working with the local community water systems, how are 
they looking at this as a potential effect in the communities? 
I grew up in Glendale. I grew up drinking this water. So, what 
are you seeing in the community in terms of what effect, and 
are they frustrated because they can't really get a drinking 
water standard that they can really meet the technology to?
    Mr. Mandirola. To this point, yes. There is obviously 
concern over an advisory level versus a MCL issued by EPA. 
Currently, obviously, you were instrumental in DOD reimbursing 
Martinsburg for their water system. The facilities around the 
Parkersburg Chemours Facility, those have all had treatment 
installed, and it has been done under an enforcement action 
between EPA and the State and Chemours; it has been in place 
prior to my coming to the DEP in 2006.
    They are required to test all public and private sources of 
drinking water around their facility. If it is above the 
advisory limit, they are then required to either replace the 
drinking water source or supply an alternate source or treat 
it.
    Senator Capito. You mentioned when I was talking with you 
when we first started that ORSANCO, which is the Ohio--I won't 
even try to get it, the Ohio River----
    Mr. Mandirola. Ohio River Sanitation Commission.
    Senator Capito. Thank you very much. It is conducting a 
study of their own. What does that consist of?
    Mr. Mandirola. They are doing a study that is going to 
consist of the entire length of the Ohio River. They are doing 
20 samples spaced roughly 50 miles apart. They have randomly 
chosen the first sample and are then spacing them down the 
river.
    What it is, is more of a background level sampling. They 
are not really doing source tracing at this point, but they are 
trying to determine, similar to what we were doing in West 
Virginia, do we have a problem, and if we do, what is the 
extent of it. So, they will be utilizing USGS sampling methods 
to do both depth integrated and width integrated sampling 
across the river to try to determine is there PFAS, and where 
in the water column is it, if there is.
    Senator Capito. Right. It is important to know that several 
communities of the five communities that came up above the 
level are located along the Ohio River, so I applaud that for 
moving forward on that, and I am ready to keep working with you 
to make sure we get this right. Thank you.
    Mr. Mandirola. That study starts in 2 weeks.
    Senator Capito. Great. Thank you.
    Senator Carper. Thank you, Senator.
    The order of questions now, I think Senator Cardin is going 
to join us by Webex. He will be succeeded by Senator Inhofe, 
who is here in person.
    So, Ben, you are recognized if you are able to join us.
    Senator Cardin. Thank you, Mr. Chairman.
    Let me thank all of our witnesses for their testimony and 
for their work for clean water. We want our policies in regards 
to the detection and remedial work to be based upon best 
science, and I think that has been made very clear.
    I applaud the leadership of our Committee in pushing the 
issues on PFAS. We have studied the situation in Maryland. We 
don't have a complete analysis, but we know that at least one 
water system plant, we have detected an unacceptable level. We 
have four military installations where we have detected 
concerns.
    I just want to follow up on Senator Capito's question, if I 
might, and that is, obviously, our first order is to make sure 
we have the safety of our communities. So work needs to be 
done, whether it is in the remedial work in an installation, or 
whether it is in our water treatment facility plant upgrades.
    My concern is this: We already have severe pressure on the 
ratepayers in dealing with the costs of safe water. We need to 
have some degree of holding those responsible accountable for 
that. It is one thing for Congress to make a specific 
appropriation to deal with particular circumstance, but this is 
now widespread.
    What advice do you have that we can hold those who are 
responsible accountable for the remedial work so that we can 
keep the pressure off the ratepayers in having to foot the bill 
for the costs of the remedial work? Any suggestions from those 
that are responsible for your water systems in your particular 
States?
    Mr. Mandirola. Senator, we have been lucky in West Virginia 
in that we were able to get reimbursed by DOD, and we have, 
through an enforcement action with EPA, been able to hold the 
facility that contaminated the majority of the other facilities 
or water treatment plants accountable.
    It is a very big concern for us, as well, for our 
ratepayers. It is going to be impractical to expect ratepayers 
to pick up the costs of, for instance, Martinsburg, I think, 
was $4.9 million.
    Senator Carper. Did you say impractical or unfair?
    Mr. Mandirola. I am sorry. It is not really going to be 
practical for us to hold them accountable, and that is why we 
took the approach we did with Chemours. I am not sure how we 
hold them accountable. As I said, EPA was very helpful in their 
enforcement action in that effect.
    Senator Cardin. My concern is that, it may have worked well 
for West Virginia, but Mr. Chairman, we need some national 
direction to hold those responsible accountable, whether it is 
private industry, or whether it is the Department of Defense.
    Is the story of West Virginia common in other States that 
we found the ability to enforce the costs against those who 
were responsible?
    Senator Carper. Mr. Mehan has his hand up. Go ahead, and 
then we will come back to you.
    Mr. Mehan. I just want to point out, Senator, we are seeing 
a situation relative to PFAS that looks very much like the old 
problems under MTBE, where now we are seeing water utilities as 
plaintiffs in common law cost recovery actions using common law 
theories, like public nuisance, et cetera, et cetera, 
trespassing.
    Orange County, California, I know, has six law firms on 
contract just beginning to pursue claims based not on a 
regulatory standard, but on a health advisory for the State of 
California.
    I just read where Dayton has filed suit against the Air 
Force. New York utilities; there is litigation in North 
Carolina.
    So, the utility sector, at least those that are incurring 
major expenses, is taking action, and I think there will be 
sort of a land office business on plaintiffs work in the water 
utility sector.
    Senator Carper. Others, please.
    Ms. Stanton.
    Ms. Stanton. Yes, thank you, Senator. At least, in 
Pennsylvania, where I am, we have not been able to hold the DOD 
accountable, and ratepayers have been paying almost double 
water bills for the last 7 years. Just within the last 12 
months, we have gotten some relief. There are several townships 
involved.
    We had got some State funding, but that is what is coming 
through. We are not going to be fully refunded, and I don't 
think it is going to be retroactive, so it is a long time to 
pay up to double water bills 7 years, and not be able to hold 
the polluter accountable.
    Senator Carper. Yes, ma'am.
    Senator Cardin. I see Mr. Kenney wanting to make a 
response.
    Mr. Kenney. Yes, Mr. Chairman and Senator Cardin. I 
appreciate that question.
    The ability for States to hold polluters accountable is 
contingent upon a secure regulatory framework. That is one of 
the areas where I think Congress can be helpful under listing 
PFAS as a hazardous waste.
    The other piece of this is there will be times in which we 
don't have a responsible party, so where we do have one, 
absolutely, they should be held accountable through strict 
enforcement as well as those who are not accountable, we need 
to have funding so that we can move the cleanup forward and 
then find the responsible party if possible.
    Senator Cardin. Thank you. This is an area, Mr. Chairman, I 
hope that we will follow up.
    Senator Carper. Yes, sir. Thanks, Senator Cardin, for 
joining us.
    Senator Inhofe, you are next, and then you will be 
succeeded by, I think, Senator Stabenow by Webex, and then 
Senator Padilla.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I appreciate this.
    Of course, I used to chair this Committee, and we have been 
addressing this for a long period of time. We haven't found the 
solutions yet. I think we are kind of tending to talk around 
it.
    I can remember back when the FAA didn't just require 
commercial airlines or airports to have available PFAS, but 
also required them to use it. That is no longer the case, and 
it has changed. In 2018, with the FAA reauthorization, but 
still, even though it is not required, they are still using it, 
and I think we all agree that that is what happening right now.
    So, we know the FAA; we know the DOD. Everyone is 
researching it, trying to get a solution. They don't have a 
solution yet, and that is the problem.
    I can't help but think they are arriving at solutions by 
now. This has been going on for a long period of time.
    So I guess, Mr. Mandirola, I would just ask you, are you 
aware of any PFAS free foams that are proven to be as effective 
and fast acting as PFAS based foams? I am reading that question 
to make sure I get it right, because I am expecting an answer 
from you.
    Mr. Mandirola. Obviously, my specialty is water quality and 
environmental protection. I am not a firefighting expert, but I 
have participated, listened in on a number of PFAS related 
presentations, and I am personally not aware of any replacement 
that is as effective as AFFF at this time.
    Senator Inhofe. You know, and I have, I am not either, and 
I have looked, and of course we have had a lot of these 
hearings, and we have a lot of experts, and that is kind of the 
reality of today.
    Mr. Mehan, as you know, there are hundreds of PFAS in 
existence, and they have all diverse compounds. Some are 
liquid, some are gases, and just an unlimited number that are 
out there, so a lot of people are supporting the lumping all 
PFAS into a single, regulated class. But those proposals, some 
feel, are misguided, because they don't take into account the 
diverse nature of these chemicals.
    So I think you are in a position to respond to the 
question. Would you discuss why efforts to regulate all PFAS as 
one single class would not be the preferred way of doing it? I 
think it would be difficult, if not impossible, to get.
    Mr. Mehan. Thank you, Senator. Well, you could do it, but 
it wouldn't be prudent, and you couldn't do it so much with an 
MCI. You would have to use a treatments technique, which would 
then pretty much push everybody to some pretty costly treatment 
technologies.
    But I think the discussion that was just had about the cost 
to ratepayers indicates one of the problems with going after 
the whole class. If you look at our written testimony at the 
bottom of page 9, we just costed out doing two, the two legacy 
PFOA and PFOS, and I think we are talking $3 billion, if you 
start at the EPA level, if you start using the standards that 
some of the States are using at the more strict level. You get 
the $38 billion, and that is just capital costs for two.
    If you start adding in O&M and disposal and waste 
management, it gets up to--those costs are a billion annually. 
If you are doing 300, 400, 500, 600, just plug in the numbers 
in the equation, and the numbers become quite staggering, 
whether it is using granular or activated carbon. Or to go 
beyond, just say three or four PFAS compounds, then you are 
into ion exchange and some very expensive treatment, so cost is 
irrelevant.
    There are trade offs to be faced, and I think the wise 
course of action, AWW is the wise course of action, is to 
follow the procedures in the Safe Drinking Water Act and the 96 
amendments, which is, as I said before, are science based, date 
driven, and risk focused. That is the prudent way to do it, and 
it attends to the relative risk issues.
    We have got a new lead and copper rule coming, which is--I 
saw where Cincinnati is going to increase water rates 3 point-
something percent this year, and then 5.5 percent for the next 
4 years just to deal with lead and copper service line removal. 
So prudence may sound like a very tame, conservative word, but 
I think it is the right word to use when you talk about 
addressing PFAS as an environmental and public health issue.
    Senator Inhofe. Thank you, Mr. Mehan.
    Thank you, Mr. Chairman.
    Senator Carper. Senator Inhofe is in a unique position here 
because he is not only the former Chairman of this Committee, 
but the former Chairman of the defense committee, the Armed 
Services Committee.
    Senator Inhofe. We have a real interest in this, and I know 
that even in our defense authorization legislation, we get into 
this. We are concerned about it.
    Senator Carper. All right.
    I understand that Senator Stabenow is out there somewhere 
to join us by Webex.
    Senator Stabenow, can you hear me?
    Senator Stabenow. Good morning.
    Senator Carper. Good morning to the Great State of 
Michigan, the home of the surging Detroit Tigers. You are 
recognized, Senator Stabenow.
    Senator Stabenow. Good morning, Mr. Chairman. Thank you. Go 
Tigers.
    I so appreciate this hearing. So many of us have been 
working on various aspects of this, a deeply challenging and 
concerning set of issues.
    I just wanted to ask if you would put in the record a copy 
of an article that just came out yesterday from researchers in 
the Great Lakes. It is called, It Is Literally Raining PFAS 
Around the Great Lakes.
    Senator Carper. Without objection.
    [The referenced information was not received at time of 
print.]
    Senator Stabenow. It is literally in the precipitation that 
is raining down on our crops and our water and our people right 
now, so deeply concerning.
    I would like first to start with Secretary Kenney, and say 
first, I appreciate all of the witnesses today. I definitely 
support establishing a strong national drinking water and 
cleanup standard for PFAS.
    I am concerned about what happens, though, before Federal 
standards are in place. Like New Mexico, Michigan has 
significant challenges when it comes to working with the 
Department of Defense, we are talking about that all this 
morning, to address PFAS contamination on military bases.
    We have actually detected PFAS on at least 10 bases in 
Michigan. At one base, we have had readings as high as 32,200 
parts per trillion.
    At some of the bases, such as Wurtsmith and Oscoda and Camp 
Grayling in Grayling, Michigan, we have PFAS mitigating it off 
the base and into water sources, and we have lakes and streams 
where they are sometimes covered by thick foam as a result of 
PFAS from the bases.
    We have had test results showing contamination at these 
times pouring out of Selfridge Air National Guard Base into the 
Clinton River and Lake St. Clair, which is the source of 
drinking water for thousands and thousands of Michiganders.
    So the State of Michigan has established its own drinking 
water and groundwater standards for numerous PFAS, and under 
current Federal law, it is pretty clear that in the absence of 
a national standard, the Department of Defense is to comply 
with State standards.
    Unfortunately, this is not happening. It is certainly not 
happening quickly enough. In fact. Congress passed my PFAS 
Accountability Act, which seeks to pressure the Department of 
Defense to finalize new cooperative agreements with States and 
expedite cleanup. The State of Michigan, the Governor has 
recently pursued that, but there are so many ways.
    Through the Farm Bill, we have tried to address it; my 
colleagues on the Committee have tried and are trying at so 
many different ways to expedite this.
    From your perspective, could you talk more about the other 
ways you think that Congress should be acting to expedite the 
cleanup by the Department of Defense? For example, should we 
push for better interim cleanup standards, looking for ways to 
compel cleanup action? I would appreciate your thoughts.
    Mr. Kenney. Thank you, Senator, and your State has been 
really helpful to us on a number of issues related to PFAS, 
relating to foams, and other things. I appreciate the technical 
advice of the Michigan Department of Environment.
    To answer your question, yes, we absolutely need to compel 
cleanups. As you probably know, members of the Committee and 
other States, the timeframe by which the Department of Defense 
puts cleanup in the queue for us does not serve our citizens.
    At Cannon Air Force Base where the plume is migrating 
toward our agricultural sector, our industry, the cleanup there 
was scheduled to start in 2028 under CERCLA authority. That is 
too late. We have people questioning today if they should get a 
shower, drink their water, water their cows. It is too late for 
that, so we need to act, and we need to hold them accountable, 
continue with our lawsuits.
    That is where Congress could absolutely affirm that PFAS is 
a listed hazardous waste under the Research Conservation 
Recovery Act. I also think Congress, this Committee, could 
start with giving strict oversight to DOD's implementation 
under CERCLA and Executive Order 12580 that talks about the 
Department of Defense and EPA's relationship to clean up.
    So those are some immediate thoughts. But declaring PFAS a 
listed hazardous waste would create that national framework 
that I think has been lacking and give us causal action to hold 
DOD accountable today.
    Senator Stabenow. Thank you.
    Thank you, Mr. Chairman. I will submit other questions for 
the record. This is such an important issue.
    Senator Carper. It is, and you have been a great leader on 
it, and we appreciate that and look forward to continuing to 
work with you, Senator Stabenow.
    Senator Padilla has joined us again.
    Senator Padilla, welcome, please.
    Senator Padilla. Thank you, Mr. Chair.
    Thank you to all of the witnesses.
    I want to ask a couple questions to Ms. Stanton. First of 
all, I deeply thank you for highlighting in your testimony the 
failures by the Department of Defense and the EPA to protect 
Americans from toxic PFAS chemicals, and believe me, I was 
moved by your testimony as a father of three young boys. So I 
thank you for turning the injustices that you have experienced 
and clearly felt into action by pushing Congress and Federal 
agencies to hold polluters accountable, and as you said in your 
testimony, even when it is the Department of Defense.
    For decades, the Department of Defense knew that they were 
polluting toxic, poisonous PFAS chemicals into the environment, 
and even after leading manufacturers voluntarily phased out 
production of PFOS and PFOA, the DOD still used firefighting 
foam containing PFAS, which has resulted in the widespread 
contamination around military sites, not just on the military 
sites, but in the surrounding communities.
    Good news is, Congress has passed legislation requiring the 
Department of Defense to phase out the use of AFFF firefighting 
foams at military installations. While this is a vital step to 
ensuring that the Department of Defense adopts PFAS free 
alternatives, it does not address the Department of Defense's 
legacy pollution, nor does it protect communities who continue 
to suffer from that legacy contamination. In California alone, 
there are 62 military facilities with a known or suspected 
release of PFAS chemicals.
    But the reality is, every military base or commercial 
airport in the country is contaminated to some extent. Yet 
there has been little to no progress in going back to clean it 
up.
    Ms. Stanton, again, I just want to recognize your courage 
and your activism. The onus should not be on you to get the 
Department of Defense to clean up these harmful chemicals.
    So I am proud to share that yesterday, I introduced a new 
bill called the Clean Water for Military Families Act, that you 
acknowledged. This legislation would require the Department of 
Defense to conduct investigations and remediate the 
contamination in and around military installations, and it 
would authorize $10 billion for the Department of Defense to do 
so. Absent the legislation, at the current rate, it would take 
decades for the Department of Defense to clean up toxic PFAS, 
which is simply unacceptable.
    So I invite you, Ms. Stanton, to share a little bit more 
not just about what needs to be done, but the urgency with 
which we need to act to get the Department of Defense to clean 
up its legacy pollution in and around military installations, 
and maybe even discuss for a few minutes how a CERCLA 
designation could help protect military families and their 
neighbors.
    Ms. Stanton. Thank you. Thank you, Senator Padilla.
    Basically, we have been hearing about processes and things 
like that, and you have to remember from the standpoint of a 
community member that has been affected, we need to act 
quickly. We need a sense of urgency.
    We need deadlines for cleanup. Right now, there are no 
deadlines. Deny, minimize, and delay has really been the motto 
that we have gotten from the Department of Defense. So the 
legislation that you are introducing is going to help so many 
people: military families, host communities, to be able to 
provide deadlines for cleanup. Right now, that is not 
happening.
    The legacy pollution is unbelievable. We have two large 
PFAS plumes, one at each of our sites.
    One of our sites was redeveloped over 20 years ago, so we 
have a large PFAS plume lurking underneath of a park, a 
playground, a Gilda Radner cancer home, a baseball field. We 
have monitoring wells that have been so high of late that they 
had to be turned into pump and treat wells, and that is at the 
base that they had closed through CERCLA, and it got opened up 
because of PFAS.
    We definitely need deadlines. Everybody just needs to 
remember that this is a public health emergency. Everyone is 
talking about processes, and they are all important, but there 
are lives at stake, here. There are people that are suffering 
and dying.
    There is a community that is just about a mile north of the 
one base in Horsham that has really been hit hard lately. It is 
a small community of only about 30 homes, and just in that home 
alone, there were two mothers that passed away within the past 
few weeks.
    I am trying to find my notes here on that community. There 
are two young mothers just passed away; there are three 
teenagers sick, two with cancer, one with thyroid disease. We 
have a 12 year old that has ovarian cancer. Her mother also has 
cancer, OK? Their next door neighbor has kidney cancer. That is 
just one neighborhood, so we really need protection.
    These PFAS plumes, even when we go to our RAD meetings and 
we hear the different levels, 1 month the levels are lower in 
one area and higher in another, and the next month, it is just 
reversed. It is not getting cleaned up. I really don't think 
that the Department of Defense is handling it well. They don't 
know what to do, and nothing is happening because there are no 
deadlines.
    So your legislation and the financing for that legislation 
is huge, and is going to make just such an important impact on 
our community, because until this legacy pollution gets cleaned 
up, we are all at risk. You are all at risk.
    PFAS is everywhere. It is not just the drinking water. It 
is not just the drinking water. It is our wildlife; it is our 
produce. The sludge is being given away to Pennsylvania farmers 
as it is across the country as free fertilizer, and then our 
broccoli is turning up with high levels of PFAS, our wildlife, 
our deer, our fish. It is just a never ending cycle, and the 
basis of it is that the Department of Defense is one of the 
biggest polluters of this, and we have to start to address this 
legacy pollution, so thank you.
    Senator Padilla. Thank you.
    Thank you, Mr. Chair.
    Senator Carper. Senator Padilla, thanks so much for joining 
us and for your questions.
    We have been joined by Senator Markey.
    You are recognized, please. Thank you for joining us.
    Senator Markey. Thank you, Mr. Chairman. Because PFAS are 
used in firefighting foams, they pose a particular danger to 
our firefighters, our military members, their families, and 
surrounding communities. Massachusetts has seen higher levels 
of these forever chemicals near Fort Devens, Barnes Air Guard 
Base, Joint Base Cape Cod, and the Barnstable County 
Firefighter Training Academy.
    Ms. Stanton, how would designating harmful PFAS as 
hazardous substances under Federal statute help communities 
near current or former military bases like West Field and 
Barnstable, which are struggling with contamination?
    Ms. Stanton. Well, declaring it a hazardous substance such 
as CERCLA is going to just begin the whole cleanup process, and 
that is the most important thing. That is what we need.
    No matter where we look in the State of Pennsylvania, there 
is a neighbor who lives just about a mile from the Horsham Base 
who's--they are worried about their home value for their home 
because their PFAS pollution is so great.
    Right now, there is absolutely nothing they can do. It is 
not against the law in the State of Pennsylvania, ok, to dump 
PFAS anywhere. Nothing is against the law. It is not declared a 
hazardous substance.
    Right now, we are actually taking our PFAS contaminated 
soil, and we just move it to a municipal landfill. All we are 
doing is moving it around because it is not considered a 
hazardous substance, so it can be moved, and we are just 
shifting our pollution from one place to another.
    Senator Markey. OK, thank you. Towns across Massachusetts 
are working hard and finding innovative solutions to pay for 
PFAS remediation and protect their residents. Natick is 
planning to spend $3 million on a high tech carbon filtration 
system. Littleton has invested $20 million in a PFAS 
remediation plan, and Wayland is spending $20,000 every single 
week on bottled water to replace its contaminated wells.
    Secretary Kenney, would designating PFAS as hazardous waste 
and conducting a comprehensive Federal response to help 
communities that are struggling to pay to address PFAS 
contamination from military bases be a good idea?
    Mr. Kenney. Senator, yes. That would be a great idea. One, 
it would deter the sort of incidental use of PFAS, so it would 
deter certain businesses like maybe furniture retailers from 
offering that and perpetuating the cycle of PFAS movement in 
our economy and our environment.
    Two, I think it would prevent, as Ms. Stanton indicated, 
the casual movement of materials between municipal waste 
facilities and farmers and things like that.
    And three, a big benefit here, and one that I don't take 
lightly, is that there are economic development opportunities 
around the technology that would treat PFAS. We in New Mexico 
are constantly talking to vendors, our national labs, and other 
technology companies who are trying to bring down the cost to 
treat this chemical, because they see the importance of it, not 
only from a public health perspective, but also because water 
is a precious resource in our State.
    Senator Markey. So, would it be important for States to be 
able to require the Department of Defense to clean up?
    Mr. Kenney. Absolutely, Senator. We absolutely need that 
hook in order to move the needle and require cleanup by dates 
certain, with consequences for not reaching it.
    Senator Markey. That is obviously, looking back 
retrospectively, that the Department of Defense thought that 
this was all kind of just a sacrifice in the areas around these 
defense facilities, that the communities would have to pay in 
perpetuity for having a military base which was sited there. So 
obviously, that was just fundamentally wrong.
    Can better testing and holding polluters responsible for 
PFAS contamination help our water systems and ratepayers avoid 
these costs, Mr. Mehan? Can better testing and holding 
polluters responsible for PFAS contamination help our water 
systems and ratepayers avoid these costs?
    Mr. Mehan. Absolutely. I think I would have probably 
grouped that under the whole area of research, which we put in 
our written comments. More data, more information, more risk 
characterization, toxicology, it is all necessary and is a big 
challenge if we are going to separate the sheep from the goats 
in the PFAS family.
    Senator Markey. Thank you. Obviously, many firefighters 
have been exposed to PFAS in their turnout gear.
    According to recent testing, PFAS has been found in 
pesticides that have been sprayed across Massachusetts after 
leaching from the pesticide containers in a chemical reaction, 
and even bottled water might not be safe.
    Water sold in Massachusetts was found to have unsafe levels 
of PFAS. There is no Federal standard for PFAS contamination in 
food and drink, which is, at this late date, is still 
unbelievable that we don't set that standard.
    So thank you all so much for your great work in this area.
    Thank you, Mr. Chairman.
    Senator Carper. Senator Markey, just before you arrived, we 
had a short discussion here. We need some folks in place, 
confirmed in position in EPA who have been nominated, including 
one we know well, Dr. Michal Freedhoff, who was reported out of 
this Committee 19 to 0 last month for a position where she 
could actually do some good work with respect to PFAS, TSCA, 
the Toxic Substances Control Act, all that, and we need to get 
her through the Senate.
    Senator Markey. I agree with you. Shakespeare said, ``The 
will is infinite, but the execution is confined,'' and I think 
Shakespeare was referring to the U.S. Senate. We have the will 
to get that done, to make sure she is confirmed, but executing 
that goal on the floor of the Senate is somewhat confined.
    She will be great, she will be a fantastic candidate. The 
Chairman and I know her well.
    Senator Carper. Thank you. We joke to say we both have had 
the pleasure of working for her. She would agree.
    We have been joined by the member on our Committee with the 
biggest smile. He is still celebrating the birth of the first 
grandchild from a week or two ago, and I am happy to recognize 
our colleague from Arizona.
    Senator Kelly. Thank you.
    Thank you, Mr. Chairman, and thanks for recognizing my new 
granddaughter, born about 12 days ago. Very exciting.
    So, thank you, and this is a very important hearing, 
especially for the State of Arizona. It is a pressing issue, 
and a growing problem, especially near our military 
installations.
    In Arizona, the four largest groundwater PFAS plumes in our 
State are centered at current or former military installations 
in the Phoenix or Tucson metropolitan area. As testing has 
improved, the EPA has provided more guidance, the scope of the 
contamination has become more significant.
    Earlier this year, the Air Force took the drastic step of 
telling more than 1,600 homeowners near Luke Air Force Base to 
avoid drinking tap water, and they began distributing bottled 
water.
    Just yesterday, just yesterday, the water utility in my 
hometown of Tucson announced that it would indefinitely be 
shutting down one of its water treatment plants due to an 
inability to filter out the extensive PFAS contamination.
    This isn't just any water treatment plant. It is part of a 
Federal Superfund site and has been cleaning contaminated 
drinking water since the early 1990s. Yet the PFAS 
contamination proved too significant. It was just too much, and 
the plant could no longer clean it up. The plant is closed as 
of yesterday.
    This one plant produces around 8 percent of Tucson's annual 
drinking water, forcing the city to find other drinking water 
sources at a time when water users throughout Arizona are 
preparing for a tier one shortage to be declared in the Lower 
Colorado River Basin after nearly 20 years of drought.
    Arizona cannot afford to have additional sources of 
drinking water contaminated. That is why, as a member of the 
Senate Armed Services Committee, I am pushing to ensure 
language is included in the 2022 National Defense Authorization 
Bill requiring that the Department of Defense's Environmental 
Restoration Program gives priority to PFAS cleanup efforts in 
communities near military installations that rely on 
groundwater for their drinking water, with a particular 
emphasis on sole source aquifers, like the groundwater aquifer 
in Tucson.
    More must be done to ensure that States and drought prone 
regions can use State Revolving Fund dollars to clean up and 
proactively, proactively prevent PFAS contamination. I look 
forward to working on these issues with my colleagues on the 
Committee.
    Thank you, Mr. Chairman and Ranking Member Capito, for 
holding this hearing today, and thank you to our witnesses for 
being here for this important, and with regard to the State of 
Arizona, very timely conversation.
    So, my first question here is for Secretary Kenney. I 
wanted to ask you about proactive PFAS prevention, given the 
prevalence of PFAS in several Arizona aquifers. Some water 
systems have sought to make system upgrades before high levels 
of PFAS are detected to ensure the safety of their drinking 
water.
    Yet while Congress has created programs for PFAS cleanup in 
recent years, water systems who want to make proactive upgrades 
must do so using ratepayer revenue. In so many water systems, 
these costs are unaffordable without Federal assistance.
    Secretary Kenney, what are the harms of only providing 
significant Federal resources to help cleanup systems with 
confirmed PFAS contamination as opposed to funding proactive 
treatment?
    Mr. Kenney. Senator, thank you for that question. 
Congratulations, as well.
    I think the harm is precisely, we are chasing our tail. If 
we are not preventing PFAS contamination from getting into our 
drinking water systems, then all we are doing is remediating or 
treating it at the point of treatment, or trying to remove it 
at the point of treatment, then we are not preventing it.
    Like Arizona, New Mexico has a similar problem with 
municipal drinking water facilities not being able to absorb 
the debt which the Drinking Water and Clean Water Acts State 
Revolving Funds require. So we have the same problem.
    Again, focusing on prevention by moving through the CERCLA 
process, the RCRA process, as I have described, would do a lot 
to deter PFAS from getting into the system to start with.
    Senator Kelly. Mr. Chairman, is it possible to have 1 more 
minute?
    Senator Carper. It is more than possible.
    Senator Kelly. Thank you.
    Secretary Kenney, if Congress appropriates additional 
funding for PFAS cleanup, how important is it that utilities 
that have made proactive upgrades to treat PFAS be eligible to 
be reimbursed for the prior investments that were made?
    Mr. Kenney. Senator, I think it is a matter of protecting 
public health and ensuring that it is not at the cost of the 
ratepayers. So I think it is absolutely essential that we lean 
in heavily and make sure that those investments are valued for 
what they are, and that is preventing people from drinking 
toxic drinking water.
    Senator Kelly. Well, thank you, Mr. Secretary.
    Mr. Chairman, I yield back my remaining 5 seconds.
    Senator Carper. We will use every one of those wisely. 
Thank you so much for joining us.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. I apologize, I had 
to step out. As all of us know, there are like, four meetings 
going on at the same time.
    But I wanted to slip over to a couple of the appropriations 
and ask some key questions. I saw Administrator Regan over 
there, so I told him we get to see him a lot in this Committee.
    I want to say, Ms. Stanton, thank you for coming, and I 
think putting a human face on what the actual effects can be of 
something that is not addressed properly that goes on for 
years, and I just appreciate your willingness to bring forward 
a very difficult topic for you, I am sure. I am sure that your 
dedication is to make sure that this doesn't happen to anybody 
else, and so I just want to thank you for being here.
    Ms. Stanton. Thank you. Thank you for the opportunity, so 
much. It is really important.
    Senator Capito. Thank you.
    Mr. Mehan, let's talk about a little bit, and I hope this 
isn't too repetitive of where we have been, when I was talking 
with Mr. Mandirola, I was talking about the different systems, 
the 137 systems, or something like that, we have in West 
Virginia, a lot of small systems. Obviously, you know a lot 
about the systems. The cost of fixing this can be very 
expensive.
    How do you envision our small water systems, what is going 
to be the best way for them to face this challenge? Is it 
repeated testing, is it a national program for repeated 
testing, is it a DOD response that needs to be amped up more 
virulently, how do you see this being able to help? We have a 
lot of small water systems in our State, so we understand the 
challenge.
    Mr. Mehan. The challenge of small water systems is, PFAS is 
just part of a whole range of challenges: Aging work force, 
just maintaining costs. I was just at a meeting with the 
California Water Board that said 90 percent of their violations 
of the Drinking Water Law is from communities of 500 customers 
or less, so there is stress there to begin with.
    PFAS, of course, I was in communication with our colleagues 
at the National Rural Water Association. They can tell you that 
a lot of small communities say, let's take region one, New 
England, I think EPA is requiring for their wastewater systems 
quarterly, three samples a quarter, gets you up to a couple of 
thousand.
    Again, if you are a couple of hundred customers or 
connections, these costs are going to be difficult for a small 
system, not for Chicago or Cincinnati or DC Water. There is no 
easy answer. It is going to require more resources. It is going 
to require resources from the ratepayers, from the government, 
Federal and State.
    And I think when it gets around to, let's say when EPA 
promulgates an MCL, as it will, on at least PFOS and maybe a 
few more contaminants, they are going to build in a system of 
regular monitoring, depending on the endpoints that the MCL 
sets. Hopefully, we will see, as we have seen in other rules, a 
monitoring waiver kicks in after a period of time or two, and 
then you get several years of free from it.
    So that is all at the margin, though. If you end up getting 
the treatment, that is where your--and then the O&M cost and 
the disposal costs, that is where you really get into the big 
money.
    Senator Capito. I will say, in our Water and Wastewater 
Bill that we passed unanimously out of Committee and 89 to 2 on 
the floor, we did have a work force component of that. We hear 
this all over our small water systems that while we are both a 
little sensitive talking about an aging work force, we know it 
has happened everywhere, but particularly, it is difficult in 
this situation.
    I don't think younger generations see this as a career 
path, managing water systems and being a part of that 
scientific community. Maybe they have a different view of it, 
so we are working on that. We are working on that.
    Let me ask you, Mr. Mandirola, I know what we are doing in 
West Virginia, and I really applaud you and your efforts at the 
DEP and the legislature for stepping up to this. Are you in 
contact, I mean, how many other States, I am sure you are part 
of a national organization; how many other States are being as 
aggressive as West Virginia in this? Couldn't we serve as a 
shining star here to be able to show the rest of the country 
how you can proceed and get good results without completely 
upsetting the apple cart?
    Mr. Mandirola. I agree. I always think West Virginia is a 
shining star when it comes to trying to be proactive on a 
number of issues. I know, for instance, Michigan and a number 
of other States, Michigan comes to mind right now, Kentucky is 
one of them, that have done extensive studies, as well.
    My recommendation would be, there was a lot of fear when we 
first started this study because the fear, obviously, was that 
we are going to find this everywhere. Because in all of the 
national groups and organizations that I belong to, when there 
are presentations associated with this, you are dealing with a 
lot of facilities, as we have heard today, around DOD sites. A 
lot of States have these DOD sites, and they are finding it 
everywhere.
    We have the added bonus of having a C8 manufacturer in our 
State, so we were very fearful that we were going to find it 
everywhere. But the fear of not knowing it was far overcome by 
the fear of what we might find out. It was extremely important 
for us to fund out what we have to deal with.
    Then when EPA comes out with a regulatory scheme for us to 
follow, we will have the informational data base to take action 
and take action quickly, rather than having to go out then and 
spend 2 years doing a study. That was our thinking behind it. I 
think it was a good approach. We addressed every water system 
that DHHR regulates, which goes down to 25 people. So, it is 
fairly extensive.
    Senator Capito. Good. That is good. I think that is good 
advice, to be on the front end to have the data ready so that 
we can meet the challenge.
    Mr. Mehan, maybe that is something that you could help 
through your organization, use this as an example of how you 
can go about it and be prepared for what we know is coming and 
have the data, so we can use that science based approach that I 
think is the best way for us to meet this challenge.
    Mr. Mehan. We have exchanged business cards.
    Senator Capito. Great. Thank you.
    Senator Carper. Thank you, Senator Capito.
    I have a couple more questions, and if we are joined by 
someone else, either in person or virtually, I will recognize 
them for their questions, but thank you again for joining us 
today and for your responses.
    I have a question for the entire panel, and I am going to 
ask each of you to take a shot at this. Would you share with us 
a list of maybe your top two or three action items in order of 
priority, in order of priority, that the Federal Government 
should take to address PFAS contamination that would be most 
helpful to your community, to your State, and maybe to our 
Nation?
    Go ahead and take a shot at that.
    Ms. Stanton, would you mind taking that lead? Thank you.
    Ms. Stanton. Absolutely, thank you, Chairman. My top three, 
very easy, No. 1: set a Federal drinking water standard for 
PFAS. Get the NCL set. No. 2, please declare PFAS a hazardous 
substance under CERCLA. This will begin the cleanup process. 
No. 3, set a deadline for cleanup for legacy PFAS pollution 
that the DOD and industry must adhere to. They are my top 
three.
    Senator Carper. Thank you.
    Mr. Mandirola.
    Mr. Mandirola. My top three, I think we are going to see a 
lot of consistency. Our top recommendation would be an NCL, as 
well as a water quality standard recommendation. We are working 
right now with an advisory level, but advisory levels are just 
that.
    Right on the face of the advisory level, it says, these are 
not for regulatory purposes, which creates a significant 
problem from the environmental protection standpoint, putting 
limits in permits on producers. We need the method of keeping 
this material out of the environment, not necessarily outlawing 
the material. But if industries are going to use it for the 
benefit of all, there needs to be a method of treatment, 
capture, proper disposal so that we keep this material out of 
entering the environment.
    Senator Carper. Thank you.
    My father, who is now deceased, would describe that as 
common sense.
    Mr. Mandirola. Correct, Senator.
    Senator Carper. Mr. Mehan.
    Mr. Mehan. Senator, not to be facetious, but funding, 
funding, funding would be our three top. The costs here are 
over and above what you would normally expect a ratepayer to 
shoulder, that is the normal replacement of pipes and 
distribution lines.
    The treatment process, this is almost an intervention from 
deep space that is just going to upturn all the budgets of 
utilities throughout the country, but taking funding is one. An 
NCL is necessary to bring some order and understanding of 
reasonable cost beneficial rule, and I think, again, following 
up on my testimony, we have got to get TSCA in the game, Toxic 
Substances Control Act. Thank you.
    Senator Carper. As it turns out, there is a woman named Dr. 
Michal Freedhoff who is an expert on TSCA and helped us write 
the bill.
    Mr. Mehan. We have been in touch with her.
    Senator Carper. With help from Senator Capito to get her 
confirmed, that would be great.
    All right.
    Secretary Kenney, please.
    Mr. Kenney. Senator, thank you. Our top three actions in 
order of priority would be to list PFAS as a hazardous waste 
under RCRA. That would start the prevention of PFAS from 
continuing to move in the environment unregulated.
    Second would be the setting of a national drinking water 
standard, which would then allow States certainty, as well as 
the drinking water treatment facilities to work toward that.
    Third would be, again, funding, funding, funding. We cannot 
manage the workload we have right now as States. I cannot ask 
my legislature to keep funding work that has no regulatory 
background. Yet we still need to protect our citizens.
    Senator Carper. On the funding, funding, funding front, 
sometimes people call me a recovering Governor. I am also a 
recovering State treasurer, and this Federal Government clearly 
has significant obligations in this regard across the country 
to communities, to families, and all.
    This is not entirely a Federal burden, and States have some 
responsibility and some capability to be helpful. The companies 
that have produced and created this problem have some 
responsibility, so it is a shared responsibility. Some of the 
greater share, I believe, falls on the Federal Government, but 
it is not solely on the Federal Government.
    I think the next question I want to ask--who have I not 
heard from, in terms of the top three? Has anybody not 
responded?
    OK, good.
    Senator Capito, why don't you go ahead, and then I have a 
couple more.
    Senator Capito. I am finished.
    Senator Carper. I have a question for Mr. Mehan, and it is 
with respect to data needed for a national drinking water 
standard.
    In your testimony, Mr. Mehan, you mentioned the importance 
of the Safe Drinking Water Act process to carefully determine a 
substance's potential risk to public health. The reasons for a 
deliberative process to establish a substance risk are obvious.
    Many experts, and I might add, a number of Members of 
Congress believe that the necessary evidence exists to 
establish a drinking water standard for PFOA and PFAS right 
now. Yet if we were to allow the Safe Drinking Water Act 
process to play out according to existing laws and regulations, 
it could take another 5 or 6 years to finalize a standard.
    For two chemicals as prevalent and as risky as PFOA and 
PFAS, do you believe that the EPA can and should establish 
drinking water standards much sooner than the Safe Drinking 
Water Act process would seem to take?
    Mr. Mehan. I think they are going to move, they are moving 
very expeditiously as to PFOA and PFOS, and maybe a few 
additional parameters. I think we will see movement on that 
pretty fast.
    Whether it is going to be as fast as a lot of people like, 
that is a good question. But the process is in place. It is a 
good process. We stand by it, and I think, in the long run, 
given the cost consequences, given the impact on ratepayers, 
given the other pressing priorities, not to mention lead and 
copper rule, we are not even talking about legionella, where 
people die, or disinfection byproducts, which is coming down 
the road, I think it is worthwhile to get this right and 
regulate in, as I say, a prudent and cost beneficial manner, 
and that would be our perspective, Senator.
    Senator Carper. All right, thank you.
    Closing statement. Any closing thoughts, Senator Capito?
    Senator Capito. No, I just appreciate the panel. I think we 
have learned a lot. I think we, I share your frustrations that 
I want this drinking water level, as I have tried to put in 
legislation out much sooner that what we expect it to be, and I 
am going to keep pushing on that, because I think that is 
critical. We have heard it from everybody.
    So Mr. Chairman, I think we have got some good marching 
orders here in terms of this. The good news/bad news is, the 
bad news is this exists. The good news is, it is a bipartisan 
effort, I think. Most every State has some kind of a base that 
has probably used some of this firefighting foam, or at least 
has exposures to it, and so we are going to keep fighting with 
that, but thank you, Mr. Chairman.
    Senator Carper. This is a glass half full. Obviously, a 
huge amount of adversity, but there is some opportunity.
    Again, this Committee has a great tradition of bipartisan 
cooperation, and simply identifying problems and going to work 
to address and to work with, in this case, the industry, with 
State and local governments, with the communities that are 
affected.
    I just want to share with you a quick, two quick stories. I 
spent 18 years flying as a naval flight officer out of 
Wilborough Naval Air Station, as you know, and before that, I 
was a naval flight officer on active duty during the Vietnam 
war.
    When we went overseas, we flew out of Moffett Field, 
California, which is right on 101, close to Mountain View Exit. 
The Navy shared a large base with NASA. We had big NASA planes; 
we had a bunch of Navy P3s, which is a pretty big plane, too.
    One day, when I was driving to work early in the morning, I 
went down 101 from where I used to live in Palo Alto, I saw 
black plumes of smoke coming up from Moffett Field. It turned 
out that one of the flight controls early in the morning, it 
was about 8 o'clock, and they had dual runways that planes 
could land alongside, so you could have two planes, literally 
landing at the same site, not adjoining runways, but parallel 
runways.
    Sadly, very sadly, tragically, an air controller directed 
two aircraft to land not on parallel runways, but on the same 
runway. A large NASA plane literally crushed a Navy P3 plane, 
and we lost all but one member of the crew. About 12 or 13 
people were killed, and fortunately, nobody in the NASA plane 
was killed. But by the time I got onto the base, the planes 
were surrounded by firefighting teams. A lot of firefighting 
foam had been dispensed in an effort to try to save lives, and 
we lost a lot of lives that day.
    Fast forward to 2006, I am driving south on State Route 1 
from my home up in northern Delaware, Wilmington, heading for 
southern Sussex County, and I drive by the Dover Air Force 
Base, and large plumes of smoke were coming up just to the 
southern end of the approach to the main runway. A C5-B, one of 
the largest planes in the world, had been pre-flighted, loaded, 
full load of gas, full load of cargo, and took off to, I think, 
for Afghanistan, some place in, maybe in Europe.
    It had four engines on the C5, and as it took off and 
climbed out, they got a warning light on one of the engines 
that something was amiss. The flight engineer turned off the 
wrong engine, and realized his mistake, and then he turned off 
the right engine. The problem was, with a full load of gas and 
a full load of cargo, you don't climb out very well and make it 
to the other side of the world.
    The plane realized quickly their problem, and they circled 
back and tried to land on the same runway that they had taken 
off on. They didn't quite make it. That is the bad news. The 
good news is, the crews, the firefighting crews, were ready. 
They were alerted, they knew what was the problem, and when the 
plane crashed less than a mile south of the approach runway, 
they were immediately surrounded, and firefighting foam was 
dispensed. Everybody was saved. Everybody walked away from it.
    There is a cruel irony here, Senator Capito. The very 
substance, the product that saved those lives that day, puts a 
lot of other people's lives at risk. Cruel irony here.
    We have an important job to do. We have talked about this; 
we have tried to do stuff. We have people on this Committee, 
especially, Ranking Member Capito and Senator Stabenow who put 
a huge amount of time and effort and their staffs into this.
    I think that the road ahead is pretty clear. It is pretty 
clear. If it wasn't clear before, it is clear now, and we 
simply have to get it done.
    I look forward very much to working with Senator Capito on 
this, as we have worked on drinking water, wastewater 
treatment, as we worked on surface transportation, and other 
issues to make the kind of progress that is needed.
    We have in place, I think, administration that is more 
inclined to be forceful and result oriented on this front. I 
very much look forward to working with the folks at EPA, the 
new folks and the folks that have been there for a long period 
of time. We owe it to all the people that we represent, and 
they have a right to expect us to make real significant 
progress.
    Let me see if I have anything else here, in closing 
statement.
    Some final housekeeping if I could. I ask unanimous consent 
to include in the record letters and related documents from 
among others, the Environmental Protection Network, the Water 
Environment Federation, the National Ground Water Association, 
and the Southern Environmental Law Center.
    [The referenced information follows. Due to size 
constraints the Southern Environmental Law Center document is 
not included below but is available in Committee files.)
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    Senator Carper. Additionally, Senators will be allowed to 
submit questions for the record through the close of business 
on June 23rd. We will compile those questions; we will send 
them to our witnesses, and we ask our witnesses to reply no 
later than July 7th.
    Anything else, Senator Capito?
    Now, I want to thank your staffs for the good work that you 
have done in pulling this together for this hearing.
    I want to thank our three witnesses who are here in person, 
and I want to thank our Secretary from New Mexico for joining 
us, as well.
    If you ever see Tom Udall, our former colleague from New 
Mexico, give him our very best.
    With that, this hearing is adjourned. Thank you so much.
    [Whereupon, at 11:48 a.m., the hearing was adjourned.]

                                 [all]
</pre></body></html>
